App. 1
RENDERED: SEPTEMBER 13, 2019; 10:00 A.M.
NOT TO BE PUBLISHED
Commonwealth of Kentucky
Court of Appeals
NO. 2018-CA-00-1259-MR
STEPHEN B. PENCE AND THOMAS BEAN,
Appellants,
v.
APPEAL FROM JEFFERSON CIRCUIT
COURT HONORABLE JUDITH E.
MCDONALD-BURKMAN, JUDGE
ACTION NO. 10-CI-405021
VNB NEW YORK, LLC AS SUCCESSOR BY
MERGER TO VNB NEW YORK CORPORATION,
AS SUCCESSOR IN INTEREST TO THE PARK
AVENUE BANK; ALEXANDER & ALEXANDER
RISK SERVICES, LLC; AVIATION SOLUTIONS,
LLC; RIVER FALLS HOLDINGS, LLC; RIVER
FALLS INVESTMENTS, LLC; SDH REALTY, INC.;
SHERI D. HUFF; W. ANTHONY HUFF; HUFF
GRANDCHILDREN’S TRUST C/O W. ANTHONY
HUFF AND SHERI D. HUFF, CO-TRUSTEES;
MICHELE BROWN; RONALD E. HEINEMAN;
FIFTH THIRD BANK, KENTUCKY, INC.; BLOOMFIELD STATE BANK; JAMES A. & DORIS A.
ROEMER; LOCUST CREEK COMMUNITY
ASSOCIATION; OXMOOR WOODS RESIDENTS
ASSOCIATION, INC.; VESTA HOLDINGS I, LLC;
AMERICAN TAX FUNDING, LLC; LOUISVILLE
JEFFERSON COUNTY METRO GOVERNMENT;
CITY OF HURSTBOURNE, KENTUCKY; AND
CITY OF MIDDLETOWN, KENTUCKY,
Appellees.

App. 2
OPINION
AFFIRMING
** ** ** ** **
BEFORE: ACREE, COMBS, AND MAZE, JUDGES.
COMBS, Judge: Stephen Pence and Thomas Bean appeal from an order of the Jefferson Circuit Court granting summary judgment to VNB New York, LLC,
successor by merger to VNB New York Corporation,
successor in interest to Park Avenue Bank, a New York
State chartered bank, (“VNB”) now shuttered but formerly headquartered in New York, New York. After our
review, we affirm.
This case has a lengthy procedural history which
includes a prior appeal to this court. Litigation began
in December 2010, when VNB filed a complaint in the
Jefferson Circuit Court against numerous defendants,
among whom were Pence and Bean. The complaint alleged that Pence and Bean breached a guarantee that
they had executed personally promising the repayment
of any sums loaned by Park Avenue Bank under a revolving line of credit extended to River Falls Holdings,
LLC, and River Falls Investments, LLC. In March
2009, in his capacity as manager of River Falls Holdings, Pence executed the revolving-line-of-credit promissory note. Bean was manager of River Falls
Investments and executed the revolving-line-of-credit
note in his capacity as its manager.
On March 23, 2009, pursuant to Pence’s direction,
Park Avenue Bank disbursed $1,485,000 under the

App. 3
revolving line of credit into a checking account of River
Falls Holdings – an account opened by Pence on November 4, 2008, in his capacity as manager of the company. Thereafter, $1,480,000 was transferred from the
River Falls Holdings’ checking account to an account
at Park Avenue Bank held by SDH Realty, Inc., a Kentucky corporation. Pence authorized the transfer of the
loan proceeds. The president of SDH Realty was Sheri
D. Huff; Wilbur Anthony Huff was the vice-president.
On March 12, 2010, the New York Banking Department seized Park Avenue Bank as a failed bank.
The Federal Deposit Insurance Corporation (FDIC)
was appointed as receiver for the bank. In its capacity
as receiver, the FDIC eventually entered into a Purchase and Assumption Agreement and an Assignment
and Purchase Agreement with Valley National Bank
New York Corporation (VNB). Under the terms of the
agreements, VNB purchased the assets and liabilities
of Park Avenue Bank, which included the revolving
line of credit and guarantee described above.
On April 1, 2010, River Falls Investment and River
Falls Holdings defaulted under the terms of the revolving line of credit. Neither Bean nor Pence satisfied the
outstanding indebtedness per the terms of their personal guarantee. As a result, VNB filed the foreclosure
action referenced above and underlying this appeal.
VNB alleged that Bean and Pence were jointly and severally liable per the terms of the guarantee upon default of the revolving line of credit for the outstanding
balance of $1,500,000 in principal and $288,916.82 in
interest as of December 9, 2010.

App. 4
Eventually, VNB filed a motion for summary judgment on the issue of Bean’s and Pence’s liability under
the terms of the guarantee. In its memorandum of law
filed in support of the motion, VNB described a broad
criminal conspiracy that allegedly led to the failure of
Park Avenue Bank.
In 2010, Charles Antonucci, President of Park Avenue Bank, and Matthew Morris, a senior vice-president of the bank, were indicted in federal court.
According to the indictment, Antonucci and Morris had
devised a plan to circumvent the policies of Park Avenue Bank so that loans to borrowers – including the
loans made to River Falls Investment and River Falls
Holdings – would appear to be legitimate to the bank’s
board of directors and to bank regulators. Antonucci
and Morris allegedly made false representations about
the borrowers’ need for working capital and overstated
the net worth of the guarantors. By 2013, Antonucci
and Morris agreed to plead guilty to charges ranging
from bank fraud to securities fraud. They also agreed
to cooperate with prosecutors in the federal insurance,
tax, and bank fraud case against Anthony Huff. Ultimately, Antonucci and Morris were sentenced by a New
York federal court and imprisoned for their roles in the
fraud scheme.
In December 2014, Huff pleaded guilty to various
tax crimes and to a massive bank and insurance fraud
that involved the bribery of Antonucci and Morris. In
2015, Huff was sentenced to serve 12 years in prison
and to pay $108,000,000 in restitution.

App. 5
In their responses to the bank’s motion for summary judgment in the foreclosure action, Bean and
Pence asserted that they were unaware of the fraud
scheme and explained that they were victims of Huff
and Park Avenue Bank executives. They contended
that the guarantee was unenforceable against them
since it was an illegal agreement and was the product
of fraud in the factum.
The Jefferson Circuit Court referred the motion
for summary judgment to its master commissioner for
consideration. On August 11, 2014, the master commissioner filed a report recommending that VNB’s motion for summary judgment against Bean and Pence be
granted. The master commissioner concluded as follows:
Pence and Bean have not alleged any facts
which fall into the category of fraud in the factum. They do not dispute that they knew they
were signing a guarant[ee]. The terms of the
guarant[ee] were spelled out in the instrument they each signed and the contents of the
instrument were not changed after they
signed it. The Sixth Circuit Court of Appeals
has construed D’Oench [Duhme & Co., v.
FDIC, 315 U.S. 447, 62 S.Ct. 676, 86 L.Ed.956
(1942)] to preclude a maker from asserting
any personal defenses against the FDIC, regardless of the maker’s intent, when it can be
said he “lent himself to a transaction which is
likely to mislead banking authorities.” Therefore, at best, the defense of fraud which has
been asserted by Bean and Pence is fraud in

App. 6
the inducement which is precluded by Section
1823(e).
Master Commissioner’s Report at 11 (citations omitted).
On October 15, 2014, Pence filed a motion for leave
to file an amended answer and counterclaim against
VNB. In the amended answer, Pence sought to add the
defense of fraud in the factum as a bar to prevent VNB
from enforcing the guarantee. In the proposed counterclaim, Pence alleged that employees of Park Avenue
Bank fraudulently misled and induced him to sign the
guarantee. An earlier panel of this Court indicated
that Bean had made an oral motion for leave to file a
similar counterclaim.
By order entered on January 12, 2015, the circuit
court adopted the Master Commissioner’s recommendation. The circuit court concluded as follows:
[Bean and Pence] raise [the] argument that
the D’Oench Doctrine and § 1823 are inapplicable to void contracts. There is little dispute
the promissory notes were obtained through
fraud, however Pence and Bean acknowledge
they knew at the time they were signing documents to obligate their respective companies. There are, however, questions as to the
oral agreement to not hold them personally liable, despite the language of the notes, the
date and location of their execution and purpose of the funds. Such considerations support
a defense of fraud in the inducement, not

App. 7
fraud in the factum, and render the notes
voidable not void ab initio.
January 12, 2015, Order at 3-4 (citations omitted).
Both Bean and Pence then filed motions seeking
reconsideration of the January 12, 2015, order. Pence
argued that the circuit court failed to rule on his motion to file an amended answer and counterclaim. By
amended order entered on November 17, 2015, the circuit court denied the motions and also denied Pence’s
and Bean’s motion to file an amended answer and
counterclaim. The trial court concluded as follows:
Pence and Bean are experienced businessmen, and do not dispute knowing what documents they signed. Their primary defense is
that they had an oral agreement with Anthony Huff that they would not be liable and
no funds were actually disbursed. However,
this side agreement is the precise scenario
D’Oench and § 1823 are designed to avoid. A
failed bank’s records, such as the promissory
notes and mortgages, essentially are viewed
in a vacuum; only errors in the written documents themselves and the institution’s records can overcome D’Oench and § 1823. As the
Court previously determined, Pence and Bean
understood the terms of the documents they
executed, did not raise any objections to the
terms, and Park Avenue Bank’s records do not
reflect any amendments or alterations to
those written terms. Illegal transactions may
still fall within the parameters of D’Oench.
For these same reasons, Pence’s and Bean’s

App. 8
motions to file counterclaims against VNB are
also denied. They are based on the same arguments that are barred by D’Oench.
November 17, 2015, Amended Order at 1-2 (citations
omitted). Pence and Bean filed their first appeal to this
Court.
Pence and Bean presented identical arguments,
and we addressed their appeals together. In our opinion, rendered June 2, 2017, Bean v. VNB N.Y., LLC,
2015-CA-001821-MR, 2017 WL 2399343 (Ky. App.
2017), we affirmed in part, vacated in part, and remanded the matter to the Jefferson Circuit Court for
further proceedings.
Because the circuit court’s conclusions were based
upon application of the D’Oench, Duhme doctrine, we
summarized it as follows:
The D’Oench Duhme doctrine was initially
recognized by the United States Supreme
Court in D’Oench, Duhme & Co., Inc. v. FDIC,
315 U.S. 447, 62 S.Ct. 676, 86 L.Ed. 956 (1942),
and subsequently codified by congressional
act in 12 U.S.C. § 1823(e). The D’Oench
Duhme doctrine is presently understood as
shielding the FDIC or assignee bank from
most claims or defenses raised to defeat its action to enforce or collect upon a debt of a failed
banking institution. The modern D’Oench
Duhme doctrine represents an amalgamation
of the federal common law with 12 U.S.C.
§ 1823(e) to form a far reaching and consequential rule of law in the area of banking.

App. 9
The underlying purposes of the D’Oench
Duhme doctrine are twofold:
One purpose of § 1823(e) is to allow federal
and state bank examiners to rely on a bank’s
records in evaluating the worth of the bank’s
assets. Such evaluations are necessary when
a bank is examined for fiscal soundness by
state or federal authorities. . . .
A second purpose of § 1823(e) is implicit in its
requirement that the “agreement” not merely
be on file in the bank’s records at the time of
an examination, but also have been executed
and become a bank record “contemporaneously” with the making of the note and have
been approved by officially recorded action of
the bank’s board or loan committee. These latter requirements ensure mature consideration of unusual loan transactions by senior
bank officials, and prevent fraudulent insertion of new terms, with the collusion of bank
employees, when a bank appears headed for
failure. . . .
Bean at 12-14 (citations omitted).
We observed that there are recognized exceptions
to the D’Oench, Duhme doctrine, including the defenses/
claims of fraud in the factum and illegality of the contract. “The defenses that ‘survive are those . . . that
void an interest ab initio’ thus rendering the instrument ‘void’ and not transferable to the FDIC.” Bean at
14 (citations omitted.)

App. 10
Having carefully considered the arguments of
Pence and Bean, we concluded that they had failed to
raise material issues of fact as to fraud in the factum.
We accepted that the revolving line of credit and guarantee were part of a criminal scheme, but we noted
that it was not disputed that Park Avenue Bank disbursed loan proceeds in the amount of $1,485,000 under the terms of the revolving line of credit and
transferred these sums to a River Falls Holdings’
checking account. We rejected the argument that the
fraud that Pence and Bean had alleged constituted
fraud in the factum. Instead, we found the allegations
more consistent with fraud in the inducement, “which
of course is negated under the facts of this case by the
D’Oench, Duhme doctrine.” Bean at 17. We concluded
that the circuit court properly rendered summary
judgment upon the defense of fraud in the factum asserted by Bean and Pence and affirmed that judgment.
With respect to the defenses/claims of illegality of
the contract, we reiterated that where the effect of the
illegality merely renders the underlying note or instrument voidable, the defense or claim is barred under the
D’Oench, Duhme doctrine. However, where the effect of
the illegality is to render the underlying note or instrument void, the protections of the D’Oench, Duhme doctrine are inapplicable.
Referring to the briefs submitted by Pence and
Bean, we observed that neither set forth specific legal
authority that would support a legal argument to render void the revolving line of credit or guarantee. Nevertheless, we concluded that if Huff and Antonucci –

App. 11
and perhaps others – “engaged in an elaborate shell
game in the various bank loan transactions to shield a
criminal enterprise unbeknownst to Pence and Bean,
then their defense could possibly prevail.” Bean at 1819. Based upon the record before us, we noted that neither the circuit court nor the master commissioner had
fully considered the issue of illegality of the underlying
bank transactions as alleged by Pence and Bean. Consequently, we concluded that summary judgment was
prematurely rendered upon the defense of illegality.
Likewise, we concluded that their motion to file a counterclaim raising the claim of illegality was prematurely denied. We vacated the judgment and remanded
for further proceedings with respect to these issues.
In an answer and counterclaim filed on September
8, 2017, Pence and Bean admitted that they had executed a “document purporting to be a Guaranty but
which actually was, unbeknownst to [them], a phony
document created by [Park Avenue Bank] and/or others pursuant to a criminal/illegal scheme.” They reasserted as an affirmative defense the illegality of the
“loan” upon which the bank’s claims are based. With
respect to their counterclaim, Pence and Bean alleged
that Huff and/or agents of Park Avenue Bank told
them that the loan was for the business purposes of
River Falls Holdings, LLC, and River Falls Investments, LLC, and that their guarantee of the loan was
for legitimate business purposes. They alleged that
they had executed the purported guarantee based
upon the representations of Huff, which they reasonably believed to be true. They asserted that the Park

App. 12
Avenue Bank knew or should have known that the representations made to Pence and Bean were false and
that the “fictitious loan was actually an illegal scheme.”
Finally, Pence and Bean alleged that the actions of
Huff and the bank’s representatives constituted a civil
conspiracy to induce Pence and Bean to sign the guarantee at issue. They sought judgment against VNB as
successor to Park Avenue Bank.
On October 18, 2017, VNB filed a motion to dismiss the counterclaim. It argued that the court lacked
subject matter jurisdiction over the counterclaim because federal law required Pence and Bean to exhaust
their administrative remedies at the FDIC before filing
a claim against a failed bank in federal court. VNB also
contended that it did not have successor liability to
Park Avenue Bank because it had not expressly assumed any such liability. Written discovery among the
parties proceeded.
On March 30, 2018, VNB filed a motion for summary judgment with respect to the defense of illegality
asserted by Pence and Bean. VNB contended that
Pence and Bean had failed to offer anything whatsoever in an effort to show that either the note or guarantee was void as illegal under state or federal law.
With the discovery deadline long since expired, VNB
observed that neither Pence nor Bean had produced a
single document, deposed a single individual, or set
forth any legal authority that would support their affirmative defense.

App. 13
In an opinion and order entered on June 7, 2018,
the Jefferson Circuit Court granted VNB’s motion to
dismiss all the counterclaims, including the claim of illegality, of Pence and Bean.
In an opinion and order entered on June 20, 2018,
the circuit court granted VNB’s motion for summary
judgment with respect to the affirmative defense of illegality. The court concluded that Pence and Bean
could not show that the loan and guarantee were void
ab initio because the note contained nothing illegal.
“[V]iewing the evidence in the light most favorable to
Pence and Bean, they fall into the category of ‘innocent defrauded borrowers.’ ” Order at 6. The court observed that this fact “does not protect them from the
fact that legitimate loan documents bearing their signatures were purchased by [VNB].” Id. “It is the reliability of those documents that the D’Oench doctrine
and § 1823(e) were designed to protect.” Id.
In an opinion and order entered on July 19, 2018,
the court’s opinion and order granting summary judgment was made final and appealable pursuant to the
provisions of Kentucky Rule(s) of Civil Procedure (CR)
54.02.
On August 15, 2018, Pence and Bean filed a motion
to vacate the summary judgment pursuant to the provisions of CR 60.02(b) and (f ). Alleging that they had
discovered “more evidence,” Pence and Bean filed the
affidavit of Anthony Huff. In an affidavit executed from
the federal penitentiary, Huff swore that Pence “was
never intended to personally guarantee any note or

App. 14
loan and that [Pence] had no knowledge of the [criminal conspiracy perpetrated] at [Park Avenue Bank].”
With respect to Bean, Huff indicated, “I cannot state
what Bean knew or didn’t know but I have no reason
to believe he was aware of the [criminal conspiracy perpetrated] at [Park Avenue Bank.]” Pence and Bean argued that “the guilty pleas by Antonucci, Morris, and
Huff to bank fraud and deceiving [bank] regulators together with Huff ’s statements in allocution would, if
considered in the light most favorable to them [Pence
and Bean], be sufficient to raise a question regarding
the ‘illegality’ of the underlying conduct associated
with the guarantee[s].” They acknowledged that the
question of whether the guarantee executed by Pence
and Bean is void or voidable is a question of law for the
court but argued that the “determination of the facts
evidencing the ‘illegality’ of the transaction is a question for the jury.” While this motion was pending before
the circuit court, Pence and Bean filed a timely notice
of appeal of the court’s June 20, 2018 order.1
In this appeal, Pence and Bean present a single
issue for our review: whether the circuit court erred by
granting summary judgment in favor of VNB with respect to the affirmative defense of illegality. We are persuaded that it did not err in so doing.

1

A motion filed pursuant to the provisions of CR 60.02 does
not affect the finality of a judgment or suspend its operation. Nor
does it render a timely appeal interlocutory. Consequently, although that motion remains pending before the circuit court, our
jurisdiction has been properly invoked.

App. 15
Pence and Bean argue that the trial court improperly balanced two competing interests: an interest in
enforcing the guarantee on its face versus a public policy interest opposing its enforcement because the underlying loan (as they contend) was part of a criminal
conspiracy to defraud the bank. They argue that the
guarantee was void ab initio because “both sides of the
illegal loan transaction intended to engage in conduct
in violation of federal criminal statutes.” However,
there is an inherent contradiction – if not misstatement – in this argument. Neither Pence nor Bean has
conceded that either one of them participated in any
criminal conspiracy. The record on appeal contains no
proof that the execution of the note and guarantee by
Pence and Bean had as its purpose any intention to
commit bank fraud or, indeed, any crime.
As summarized above, the provisions of 12 U.S.C.
§ 1823(e) were enacted to ensure that federal and state
bank examiners could rely on a bank’s records in evaluating the worth of the bank’s assets. Consequently,
seemingly unqualified notes and guarantees that are
executed as part of a typical loan transaction are not
subject to a defense against their enforcement. Even
where senior bank officials collude with bank customers to defraud the bank, the D’Oench, Duhme doctrine
specifically prevents the assertion of a defense against
the enforcement of the customers’ obligation to repay
the loan.
While Pence and Bean refer to the duly executed
note and guarantee as a “phony document,” there is
nothing on the face of their provisions that appears to

App. 16
be phony. The loan documents were executed prior to
the bank’s disbursement of funds on March 23, 2009,
pursuant to Pence’s direction, to a checking account
opened by Pence in his capacity as manager of River
Falls Holdings. Thereafter, Pence duly authorized the
transfer of the loan proceeds to another account. Again,
on their face, the note and guarantee reflect a perfectly
ordinary loan transaction.
Nevertheless, citing the holding in Zeitz v. Foley,
264 S.W.2d 267 (Ky. 1954), Pence and Bean argue that
we can declare their personal guarantees void on the
basis that the underlying loan had as its “direct object
and purpose” a violation of law. However, neither Pence
nor Bean contends that they intended or were aware
that the object and purpose of the loan that they
sought and personally guaranteed was illegitimate or
illegal in any way. The terms of the transaction were
clear to the parties; Pence and Bean (managers of their
companies) authorized the loan and personally guaranteed it. They have not declared that their intention
in securing the loan or in authorizing the disbursement of funds was fraudulent. Thus, the ordinary loan
transaction was not rendered void at its inception even
where the loaned funds are said to have been used
thereafter and by others for an illegal purpose.
Pence and Bean have acknowledged that the question of whether loan instrument is void ab initio is a
question of law for the court to decide. Under these
facts, the circuit court did not err by concluding as a
matter of law that the parties’ agreement was not void

App. 17
ab initio. Therefore, VNB was entitled to summary
judgment as a matter of law.
We AFFIRM the judgment of the Jefferson Circuit
Court.
ALL CONCUR.
BRIEF FOR
APPELLANTS:

BRIEF FOR
APPELLEE:

Michael A. Valenti
Lee S. Archer
Louisville, Kentucky

Christie A. Moore
April A. Wimberg
Amanda L. Dohn
Louisville, Kentucky

App. 18
NO: 10-CI-405021

JEFFERSON CIRCUIT COURT
DIVISION NINE (9)

JUDGE JUDITH MCDONALD-BURKMAN
VNB NEW YORK, LLC. SUCCESSOR BY
MERGER TO VNB NEW YORK CORP.
SUCCESSOR IN INTEREST TO THE
PARK AVENUE BANK
PLAINTIFF
V.
ALEXANDER & ALEXANDER
RISK SERVICES, ET. AL.

DEFENDANTS

OPINION AND ORDER
(Filed Jun. 20, 2018)
This matter comes before the Court on Plaintiff ’s
Motion for Summary Judgment. Defendants Stephen
Pence and Thomas Bean have filed their Response and
Plaintiff has filed its Reply. The issues now stand submitted.
The standard for summary judgment analysis is
set forth in CR 56 and is interpreted by Steelvest, Inc.
v. Scansteel Ser. Ctr., Inc., 807 SW 2d 476 (Ky. 1991).
Following that standard, the Court must view the evidence in the light most favorable to the non-moving
party and award summary judgment only where there
are no genuine issues of material fact that would make
it possible for the non-moving party to prevail at trial.
The non-moving party has the duty to produce at least
some affirmative evidence that there are issues of fact.
Further, in Welch v. American Publ. Co., 3 SW 3d 724

App. 19
(Ky. 1999), the Supreme Court re-examined the standard for summary judgment analysis in this Commonwealth. Chief Justice Lambert wrote that, “The inquiry
should be whether, from the evidence of record, facts
exist which would make it possible for the non-moving
party to prevail. In the analysis, the focus should be on
what is of record rather than what might be presented
at trial.”
On March 17, 2009, River Falls Holdings LLC and
River Falls Investments LLC applied for a $1.5 million
dollar Revolving Line of Credit Secured Promissory
Note with Park Avenue Bank. Thomas Bean signed the
loan documents on behalf of River Falls Investments
LLC and Stephen Pence signed on behalf of River Falls
Holdings LLC. Both men signed personal guarantees.
Park Avenue Bank disbursed $1,485,000.00 to the
River Falls Holdings LLC account, which had been
opened by Pence. The funds were then transferred to
SDH Realty, Inc. on Pence’s authority.
Park Avenue Bank failed and the FDIC was appointed as Receiver. It executed a Purchase and Assumption Agreement and Assignment and Purchase
Agreement with Plaintiff, allowing Plaintiff to purchase all assets, notes and guarantees of Park Avenue
Bank. On April 1, 2010, River Falls Holdings LLC and
River Falls Investments LLC defaulted.
The within foreclosure action was commenced alleging Pence and Bean breached their guarantees. On
October 23, 2013, Plaintiff filed its initial Motion for
Summary Judgment. Pence and Bean argued that they

App. 20
were not aware of the documents they were signing,
the loans in question were “phony,” and the guarantees
were procured by fraud. The issues were referred to the
Master Commissioner and, on her recommendation,
this Court granted Plaintiff ’s Motion for Summary
Judgment. Pence and Bean appealed that Judgment.
The Kentucky Court of Appeals held that the Judgment was premature as to the issue of illegality.
Pence and Bean argue that the transactions were
“fictitious in nature and served no valid commercial
purpose.” They asserted that Park Avenue Bank, Huff
and Antonucci utilized “fraudulent application documents to make the loans appear legitimate should the
Board or bank regulators later review the transaction.”
The purpose of the transactions, according to Pence
and Bean was “to hide massive overdrafts that Huffcontrolled entities had with Park Avenue Bank/VNB
pursuant to an illegal criminal scheme.”
Discovery in this matter was to be completed by
March 1, 2018. VNB asserts that, although it complied
with Defendants’ discovery requests, the responses of
Pence and Bean were deficient. No documents were
produced. No depositions have been noticed. Therefore,
Plaintiff argues that Pence and Bean cannot meet
their burden of proving illegality as they have failed to
present any affirmative evidence that there are genuine issues of material fact as to the transactions. Rock
River Communs. Inc. v. Universal Music Group, Inc.
745 F. 3d 343 (9th Cir. 2017).

App. 21
12 USC § 1283 (e) codifies the doctrine enunciated
in D’Oench Duhme & Co. v. FDIC 315 US 447, 62 S. Ct.
676, 86 L. Ed. 956 (1942) holding that a “secret agreement could not be a defense to suit by the FDIC because it would tend to deceive banking authorities.”
Further, the Court held that when the maker “lent
himself to a scheme or arrangement whereby the banking authority . . . was likely to be misled, that scheme
or arrangement could not be the basis for a defense
against the FDIC.” Langley v. FDIC 484 US 86 (1987).
Further, “[T]he FDIC transfers its protected status to
subsequent purchasers of notes it holds.” FDIC v.
Newhart, 892 F 2d 47 (8th Cir. 1989)
The statute states:
No agreement which tends to diminish or defeat the right, title or interest of the Corporation (FDIC) in any asset acquired by it under
this section, either as security for a. loan or by
purchase, shall be valid against the Corporation (FDIC) unless such agreement (1) shall
be in writing, (2) shall have been executed by
the bank and the person or persons claiming
an adverse interest thereunder, including the
obligor, contemporaneously with the acquisition of the asset by the bank, (3) shall have
been approved by the board of directors of the
bank or its loan committee which approval
shall be reflected in the minutes of said board
or committee, and (4) shall have been, continuously, from the time of its execution, an official record of the bank.

App. 22
One of its purposes is to support the reliability of
bank records. As stated in FDIC v. Hudson, 800 F. Supp
867 (N.D. Cal. 1990), “Those purposes included 1) allowing federal and state bank examiners to rely on a
bank’s records in evaluating the worth of the bank’s
assets; 2) ensuring mature consideration of unusual
loan transactions by senior bank officials; and 3) preventing fraudulent insertion of new terms with the collusion of bank employees, when a bank appears headed
for failure.” If a contract is void ab initio, the defense of
illegality may be asserted. However, if a contract is
merely voidable, the defense is barred. In re Settlers
Housing Serv. Inc. v. Schaumberg Bank & Tr. Co. N.A.
514 BR 258 (N.D. Ill. 2014).
As a matter of Kentucky law, if an agreement is in
violation of a statute and the statute does not declare
it void, it will be enforced. Zeitz v. Foley, 264 SW 2d 267
(Ky, 1954). A contract is void under Kentucky law “if it
is so connected with an illegal purpose as to be inseparable from it”; “If it appears that a contract has as its
direct object and purpose a violation” of law.” The Court
further stated that:
If it clearly appears that a contract has as
its direct object and purpose a violation of the
Federal or state constitution, Federal or state
statutes, some ordinance of a city or town or
some rule of the common law, courts will not
lend their aid to its enforcement. However,
contracts voluntarily made between competent persons are not to be set aside lightly. As
the right of private contract is no small part
of the liberty of the citizen, the usual and most

App. 23
important function of courts is to enforce and
maintain contracts rather than to enable parties to escape their obligations on the pretext
of public policy or illegality, If the legality of
the contract can be sustained in whole or in
part under any reasonable interpretation of
its provisions, courts should not hesitate to
decree enforcement. Cumberland Valley Contractors, Inc. v. Bell Cty. Coal Corp. 238 SW 3d
644 (Ky. 2007).
Plaintiff asserts that there are no facts which
prove the loans are void or invalid.
Pence and Bean have stated that “What they were
signing had nothing to do with an actual loan being
made.” They argue that the guilty pleas of Huff and
Morris and the Indictments in the Southern District of
New York constitute sufficient evidence that the transactions were evidence of the criminal conspiracy. They
contend that the persona] guarantees are void ab initio
because they violate public policy. Kentucky Association of Highway Contractors v. Williams 280 SW 937
(Ky. 1926).
In support of their position, Pence and Bean rely
upon the case of Signapori v. Jagaria, 84 NE 3d 369,
416 Ill. Dec. (2017). The case deals with misrepresentations to lenders designed to hide the fact that the
parties had terminated their formal business connection. To this end, they drafted an agreement which
promised serious consequences should either or them
disclose the arrangement. However, Signapori sought
to enforce the agreement. The circuit court held that

App. 24
because the agreement was to keep a criminal act secret it was void against public policy and would not be
enforced. The appellate court held that, “Public policy
favors the exposure of crime, and the cooperation of
citizens possession knowledge thereof is essential to effective implementation of that policy [Citation omitted].” The Court concluded that, “contracts barring the
reporting of crimes are held to be unenforceable.” However, these facts bear no resemblance to the case at bar.
Both Plaintiff and Defendants have cited the In re
Settlers case, supra, in support of their arguments. The
Court therein held that, “D’Oench and § 1823 (e) were
crafted precisely to protect the FDIC and its successors
from the bad acts of the failed bank taken over by the
FDIC.” The Court stated that, “The scope of protection
afforded to the FDIC and its successors in interest by
D’Oench and § 1823 (e) is extremely broad. Not only
does it cover the original subject of side-agreements between the bank and its customer, it also covers a possible fraud by a failed bank practiced upon a customer.”
The Court further held that, “When allocating losses
between an innocent defrauded borrower and innocent
depositors and regulators, the defrauded borrower
should bear the loss as having been in the better position to avoid the loss.”
The contract itself contained nothing illegal. In
this case, viewing the evidence in the light most favorable to Pence and Bean, they fall into the category of
“innocent defrauded borrowers.” However, this does
not protect them from the fact that legitimate loan documents bearing their signatures were purchased by

App. 25
Plaintiff. It is the reliability of those documents that
the D’Oench doctrine and §1283 (c) were designed to
protect.
IT IS HEREBY ORDERED AND ADJUDGED
that the Plaintiff ’s Motion for Summary Judgment is
GRANTED.
/s/ Judith McDonald-Burkman
JUDITH MCDONALD-BURKMAN,
JUDGE
JEFFERSON CIRCUIT COURT
DATE: 6-20-18
Cc: Christie A. Moore/April A. Wimberg
Michael A. Valenti/Lee S. Archer

App. 26
RENDERED: JUNE 2, 2017; 10:00 A.M.
NOT TO BE PUBLISHED
Commonwealth of Kentucky
Court of Appeals
NO. 2015-CA-001821-MR
THOMAS BEAN
APPELLANTS
v.
APPEAL FROM JEFFERSON CIRCUIT
COURT HONORABLE JUDITH E.
MCDONALD-BURKMAN, JUDGE
ACTION NO. 10-CI-405021
VNB NEW YORK, LLC; AS SUCCESSOR BY
MERGER TO VNB NEW YORK CORPORATION,
AS SUCCESSOR IN INTEREST TO THE PARK
AVENUE BANK; ALEXANDER & ALEXANDER
RISK SERVICES, LLC; AVIATION SOLUTIONS,
LLC; RIVER FALLS HOLDINGS, LLC; RIVER
FALLS INVESTMENTS, LLC; SDH REALTY, INC.;
SHERI D. HUFF; W. ANTHONY HUFF; HUFF
GRANDCHILDREN’S TRUST, C/O W. ANTHONY
HUFF AND SHERI D. HUFF, CO-TRUSTEES;
MICHELE BROWN; RONALD E. HEINEMAN;
STEPHEN B. PENCE; FIFTH THIRD BANK,
KENTUCKY, INC.; BLOOMFIELD STATE BANK;
JAMES A. AND DORIS A. ROEMER; LOCUST
CREEK COMMUNITY ASSOCIATION; OXMOOR
WOODS RESIDENTS ASSOCIATION, INC.;
VESTA HOLDINGS I, LLC; AMERICAN TAX
FUNDING, LLC; LOUISVILLE JEFFERSON
COUNTY METRO GOVERNMENT; CITY OF

App. 27
HURSTBOURNE, KENTUCKY; AND CITY OF
MIDDLETOWN, KENTUCKY,
APPELLEES
AND
NO. 2015-CA-001822-MR
STEPHEN B. PENCE,
APPELLANT
v.
APPEAL FROM JEFFERSON CIRCUIT
COURT HONORABLE JUDITH E.
MCDONALD-BURKMAN, JUDGE
ACTION NO. 10-CI-405021
VNB NEW YORK, LLC, AS SUCCESSOR BY
MERGER TO VNB NEW YORK CORPORATION,
AS SUCCESSOR IN INTEREST TO THE PARK
AVENUE BANK; ALEXANDER & ALEXANDER
RISK SERVICES, LLC; AVIATION SOLUTIONS,
LLC; RIVER FALLS HOLDINGS, LLC; RIVER
FALLS INVESTMENTS, LLC; SDH REALTY, INC.,
SHERI D. HUFF; W. ANTHONY HUFF; HUFF
GRANDCHILDREN’S TRUST, C/O W. ANTHONY
HUFF AND SHERI D. HUFF, CO-TRUSTEES;
MICHELE BROWN; RONALD E. HEINEMAN;
THOMAS BEAN; FIFTH THIRD BANK, KENTUCKY, INC.; BLOOMFIELD STATE BANK;
JAMES A. AND DORIS A. ROEMER; LOCUST
COMMUNITY ASSOCIATION; OXMOOR WOODS
RESIDENTS ASSOCIATION, INC.; VESTA
HOLDINGS I, LLC; AMERICAN TAX FUNDING,
LLC; LOUISVILLE JEFFERSON COUNTY
METRO GOVERNMENT; CITY OF

App. 28
HURSTBOURNE, KENTUCKY; AND CITY OF
MIDDLETOWN, KENTUCKY
APPELLEES
OPINION
AFFIRMING IN PART,
VACATING IN PART, AND REMANDING
** ** ** ** **
BEFORE: J. LAMBERT, NICKELL, AND TAYLOR,
JUDGES.
TAYLOR, JUDGE: Thomas Bean brings Appeal No.
2015-CA-001821-MR and Stephen B. Pence brings Appeal No. 2015-CA-001822-MR from January 12, 2015,
and November 17, 2015, Orders of the Jefferson Circuit
Court rendering summary judgment upon their defenses and counterclaims of fraud in the factum and
illegality. We affirm in part, vacate in part, and remand
Appeal No. 2015-CA-001821-MR and Appeal No. 2015CA-001822-MR.
The underlying substantive and procedural facts
are complex. To aid in the disposition of these appeals,
only those facts necessary to our resolution will be recited.
The genesis of these appeals emanate from 2009
loan agreements between River Falls Holdings, LLC,
River Falls Investments, LLC, and the Park Avenue
Bank. Particularly, in March 2009, River Falls Holdings, and River Falls Investments executed a Revolving Line of Credit Secured Promissory Note (Revolving
Line of Credit) with Park Avenue Bank for a loan in

App. 29
the principal amount not to exceed 1.5 million dollars.1
Thomas Bean was manager of River Falls Investments
and signed the Revolving Line of Credit in such capacity. Stephen B. Pence was manager of River Falls Holdings and also signed the Revolving Line of Credit in
such capacity. Both Bean and Pence also executed a
Guarantee, personally promising to guarantee payment of any sums loaned under the Revolving Line of
Credit.2 Pursuant to Pence’s direction, Park Avenue
Bank disbursed $1,485,000 under the Revolving Line
of Credit into a checking account of River Falls Holdings on March 23, 2009; thereafter, $1,480,000 was
transferred from the River Falls Holdings’ checking account to an account at Park Avenue Bank held by SDH
Realty, Inc. The president of SDH Realty was Sheri D.
Huff, and W. Anthony Huff was the vice-president.3
Approximately one year later, on March 12, 2010,
the New York Banking Department seized Park Avenue Bank as a failed bank, and the Federal Deposit Insurance Corporation (FDIC) was appointed as receiver
for the Park Avenue Bank. In its capacity as receiver,
effective the same date, the FDIC entered into a Purchase and Assumption Agreement and an Assignment
and Purchase Agreement with Valley National Bank
1

The Revolving Line of Credit Secured Promissory Note (Revolving Promissory Note) was also secured by a mortgage upon
real property located in Louisville, Kentucky, and owned by SDH
Realty, Inc.
2
Although not at issue, the Guarantee was also signed by
Sheri D. Huff.
3
SDH Realty, Inc., was a Kentucky Corporation.

App. 30
New York Corporation (VNB). Under the agreements,
VNB purchased the assets and liabilities of Park Avenue Bank, which included the Revolving Line of Credit
and Guarantee, at issue in this case.
Thereafter, on April 1, 2010, River Falls Investment and River Falls Holdings defaulted under the
terms of the Revolving Line of Credit. Despite notice of
the default, neither Bean nor Pence satisfied the outstanding indebtedness per the terms of their Guarantee.
In December 2010, VNB, as successor to Park Avenue Bank, filed a complaint in the Jefferson Circuit
Court against, inter alios, River Falls Holdings, River
Falls Investments, Bean, Pence, the Huffs, and SDH
Realty. Relevant to this appeal, VNB claimed that
River Falls Holdings and River Falls Investments defaulted under the terms of the Revolving Line of Credit
and owed a total of $1,500,000 in principal and
$288,916.82 in outstanding interest, as of December 9,
2010. VNB also claimed that Bean and Pence were
jointly and severally liable upon default of the Revolving Line of Credit for the outstanding balance of principal and interest in the amount of $1,788,916.82 per
the terms of their Guarantee.
Subsequently, VNB filed a motion for summary
judgment upon the issue of Bean and Pence’s liability
under the Guarantee.4 In its memorandum of law filed
4

Actually, Valley National Bank New York, Corporation
(VNB) filed two Motions for Summary Judgment in this case, one
in 2011 and one in 2013. The order on appeal emanates from the

App. 31
in support of the motion for summary judgment filed
on October 23, 2013, VNB outlined the alleged criminal
conspiracy that led to Park Avenue Bank’s ultimate
failure and eventual receivership by the FDIC:
On September 27, 2012, the sealed indictment of Anthony Huff and two other men was
unsealed in the United States District Court
in the Southern District of New York. . . . As
alleged in the Huff Indictment, Anthony Huff
controlled 22 affiliated entities, referred to in
the indictment as the “Huff-Controlled Entities.” These entities include some of the Defendants herein including [River Falls
Holdings, River Falls Investments and SDH
Realty].
One of the other men indicted in the Huff
Indictment was Matthew Morris (“Morris”), a
Senior Vice President at Park [Avenue] Bank.
Morris managed Park [Avenue] Bank’s
motion filed on October 23, 2013. At first blush, we question
whether a final and appealable judgment has actually been entered on the respective individual guarantor liability pursuant to
Kentucky Rules of Civil Procedure (CR) 54. No specific amount of
liability has been awarded by judgment, including accrued interest and attorney’s fees. Additionally, the findings of the Master
Commissioner were not incorporated into the orders on appeal regarding the guarantor liability. However, the circuit court also
granted judgment to VNB on Stephen B. Pence (Pence) and
Thomas Bean’s (Bean) counter claims, which directly relates to
the affirmative defenses of fraud in the factum and illegality, as
asserted by Pence and Bean to the allegations in the complaint.
Further, the orders on appeal included the requisite language set
forth in CR 52.04. We thus have addressed those claims as final
per Watson v. Best Financial Services., Inc., 245 S.W.3d 722 (Ky.
2008).

App. 32
relationships with Huff and the HuffControlled Entities. Another man mentioned
in the Huff Indictment is Charles Antonucci
(“Antonucci”). He served as President of Park
[Avenue] Bank. Prior to the release of the Huff
Indictment, on October 8, 2010, Antonucci had
been separately indicted and pled guilty. Antonucci pled guilty to criminal charges of
fraud against the U.S. Treasury’s Troubled Asset Relief Program (“TARP”), securities fraud,
self-dealing, bank bribery, and embezzlement
of Park [Avenue] Bank funds.
According to the Huff Indictment, in violation of Park [Avenue] Bank policies, while
working with Huff, Antonucci and Morris allowed the Huff-Controlled Entities to overdraw their accounts at Park [Avenue] Bank in
amounts exceeding $9 million, funds which
were taken out of and lost by Park [Avenue]
Bank. In exchange for cash payments and
other benefits, the Huff Indictment alleges
that Antonucci abused his powers at Park [Avenue] Bank to allow the three (3) Borrowers
to obtain three (3) separate line of credit approvals of up to $1.5 million for a total of up
to $4.5 million. . . . (alleging that Anthony
Huff “paid hundreds of thousands of dollars to
Morris and Antonucci in exchange for Morris
and Antonucci providing Huff favorable treatment at Park Avenue Bank”). The Huff Indictment notes that the $1.5 million was the limit
of Antonucci’s individual authority for real
estate secured loans. Those loans violated
the provisions of the Park [Avenue] Bank
Credit Policy, including, but not limited to, the

App. 33
treatment of cross-collateralized loans as a
single loan, which caused the loan to exceed
Antonucci’s approval threshold. . . . The Huff
Indictment alleges that the lines of credit for
up to $4.5 million were taken to mask the excessive overdrafts of the Huff-Controlled Entities. These overdrafts and other regulatory
concerns would have prevented Park [Avenue]
Bank Board of Directors from approving additional debt to the Huff-Controlled Entities if
bank procedures had been followed and the
loans had been sent to the Board for review.
According to the Indictment, Huff and
Antonucci devised a plan to deceive Park [Avenue] Bank and to “circumvent” Park [Avenue] Bank’s policies so that the loans would
appear legitimate to the Park [Avenue] Bank
Board of Directors and to bank regulators who
may review the bank’s transactions.
They did this by, unbeknownst to Park
[Avenue] Bank, making false representations
about the need for working capital for the Borrowers and by overstating the net worth of the
Guarantors. Ultimately, the three (3) loans
were approved by Antonucci without the required approval of the Park [Avenue] Bank
Board of Directors. The funds were used to
pay down the overdraft of the Huff-Controlled
Entities, funds which has already left the
bank.
VNB’s Memorandum of Law in Support of its Motion
for Summary Judgment at 10-12 (citations omitted).
VNB maintained that as an assignee of the FDIC it

App. 34
was entitled to the protections of the D’Oench Duhme
doctrine, which barred most claims or defenses asserted by borrowers/guarantors to prevent enforcement of notes or guarantee instruments.5 VNB argued
that Bean and Pence breached the terms of the Guarantee by failing to pay the outstanding balance owed
under the Revolving Line of Credit, and summary
judgment was proper against them.
Bean and Pence filed responses to the motion for
summary judgment. Therein, Bean and Pence claimed
to have possessed no knowledge of the criminal scheme
relating to loans from Park Avenue Bank and claimed
to also have been victims thereof. Bean and Pence argued that the Guarantee was unenforceable due to
fraud in the factum and illegality of the agreement.
Both Bean and Pence pointed out that these defenses
are exceptions to the D’Oench Duhme doctrine.
The circuit court referred the motion for summary
judgment to the master commissioner for consideration. On August 11, 2014, the master commissioner
filed a report recommending that VNB’s motion for
summary judgment against Bean and Pence be
granted. In so recommending, the master commissioner concluded that the D’Oench Duhme doctrine
barred Bean and Pence’s defenses and that no exceptions thereto existed:
Pence and Bean have not alleged any
facts which fall into the category of fraud in
5

See D’Oench, Duhme & Co., Inc., v. FDIC, 315 U.S. 447, 62
S. Ct. 676, 86 L. Ed. 956 (1942).

App. 35
the factum. They do not dispute that they
knew they were signing a guarant[ee]. The
terms of the guarant[ee] were spelled out in
the instrument they each signed and the contents of the instrument were not changed after they signed it. The Sixth Circuit Court of
Appeals has construed D’Oench [Duhme &
Co., v. FDIC, 315 U.S. 447, 62 S. Ct. 676, 86
L. Ed. 956 (1942)] to preclude a maker from
asserting any personal defenses against the
FDIC, regardless of the maker’s intent, when
it can be said he “lent himself to a transaction
which is likely to mislead banking authorities.” Therefore, at best, the defense of fraud
which has been asserted by Bean and Pence is
fraud in the inducement which is precluded by
Section 1823(e).
Master Commissioner’s Report at 11 (citations omitted).
On October 15, 2014, Pence filed a motion for leave
to file an amended answer and counterclaim against
VNB. In the amended answer, Pence sought to add the
defense of fraud in the factum as a bar to prevent VNB
from enforcing the Guarantee. And, in the proposed
counterclaim, Pence alleged that employees of the Park
Avenue Bank fraudulently misled and induced him to
sign the Guarantee. It appears that Bean also made an
oral motion for leave to file a similar counterclaim.
By Order entered January 12, 2015, the circuit
court followed the Master Commissioner’s recommendation and overruled the “objections” filed by Bean and
Pence. Relevant herein, the circuit court concluded:

App. 36
[Bean and Pence] raise [the] argument
that the D’Oench Doctrine and § 1823 are inapplicable to void contracts. There is little dispute the promissory notes were obtained
through fraud, however Pence and Bean
acknowledge they knew at the time they were
signing documents to obligate their respective
companies. There are, however, questions as
to the oral agreement to not hold them personally liable, despite the language of the
notes, the date and location of their execution,
and purpose of the funds. Such considerations
support a defense of fraud in the inducement,
not fraud in the factum, and render the notes
voidable not void ab initio.
January 12, 2015, Order at 3 – 4 (citations omitted).
Both Bean and Pence then filed motions seeking
reconsideration of the January 12, 2015, Order. Pence
argued the circuit court failed to rule on his motion to
file an amended answer and counterclaim. By
Amended Order entered November 17, 2015, the circuit court denied the motions and also denied Pence
and Bean’s motion to file an amended answer and
counterclaim:
Pence and Bean are experienced businessmen, and do not dispute knowing what
documents they signed. Their primary defense is that they had an oral agreement with
Anthony Huff that they would not be liable
and no funds were actually disbursed. However, this side agreement is the precise scenario D’Oench and § 1823 are designed to

App. 37
avoid. A failed bank’s records, such as the
promissory notes and mortgages, essentially
are viewed in a vacuum; only errors in the
written documents themselves and the institution’s records can overcome D’Oench and
§ 1823. As the Court previously determined,
Pence and Bean understood the terms of the
documents they executed, did not raise any
objections to the terms, and Park Avenue
Bank’s records do not reflect any amendments
or alterations to those written terms. Illegal
transactions may still fall within the parameters of D’Oench. For these same reasons,
Pence’s and Bean’s motions to file counterclaims against VNB are also denied. They are
based on the same arguments that are barred
by D’Oench.
November 17, 2015, Amended Order at 1 – 2 (citations
omitted). These appeals follow.
APPEAL NOS. 2015-CA-001821-MR
AND 2015-CA-001822-MR
To begin, we will address both appeals simultaneously as Pence and Bean raise identical arguments in
their respective briefs as to the propriety of the circuit
court’s summary judgment.
Summary judgment is proper where there exists
no material issue of fact and movant is entitled to judgment as a matter of law. Kentucky Rules of Civil Procedure 56; Steelvest, Inc. v. Scansteel Service Center,
Inc., 807 S.W.2d 476 (Ky. 1991). When ruling upon a

App. 38
motion for summary judgment, all facts and inferences
therefrom are to be viewed in a light most favorable to
the nonmoving party. Steelvest, Inc., 807 S.W.2d 476.
Our review proceeds accordingly.
Bean and Pence initially contend that the circuit
court erred by rendering summary judgment upon
their defenses of fraud in the factum and illegality.
Bean and Pence maintain that these defenses are not
barred by the D’Oench Duhme doctrine. Bean and
Pence allege that material issues of fact existed upon
these defenses and that the circuit court erred by concluding otherwise.
D’Oench Duhme Doctrine
The D’Oench Duhme doctrine was initially recognized by the United States Supreme Court in D’Oench,
Duhme & Co., Inc., v. FDIC, 315 U.S. 447, 62 S. Ct. 676,
86 L. Ed. 956 (1942), and subsequently codified by congressional act in 12 U.S.C. § 1823(e).6 The D’Oench

6

12 U.S.C. § 1823(e) provides:
(E) Deposit Insurance Fund available for intended purpose only
(i) In general
After December 31, 1994, or at such earlier time
as the Corporation determines to be appropriate,
the Corporation may not take any action, directly
or indirectly, with respect to any insured depository institution that would have the effect of increasing losses to the Deposit Insurance Fund by
protecting –

App. 39
Duhme doctrine is presently understood as shielding
the FDIC or assignee bank from most claims or defenses raised to defeat its action to enforce or collect
upon a debt of a failed banking institution. See Langley, 484 U.S. 86. Bell & Murphy and Assocs. v. Interfirst
Bank Gateway, N.A., 894 F.2d 750 (5th Cir. 1990); UMLIC-Nine Corp. v. Lipan Springs Dev. Corp., 168 F.3d
1173 (10th Cir. 1999); Fleet Bank of Maine v. Steeves,
785 F. Supp. 209 (D. Maine 1992). The modern D’Oench
Duhme doctrine represents an amalgamation of the
federal common law with 12 U.S.C. § 1823(e) to form a
far reaching and consequential rule of law in the area

(I) depositors for more than the insured portion of deposits (determined without regard
to whether such institution is liquidated); or
(II) creditors other than depositors.
(ii) Deadline for regulations
The Corporation shall prescribe regulations to implement clause (i) not later than January 1, 1994,
and the regulations shall take effect not later
than January 1, 1995.
(iii) Purchase and assumption transactions
No provision of this subparagraph shall be construed as prohibiting the Corporation from allowing any person who acquires any assets or
assumes any liabilities of any insured depository
institution for which the Corporation has been appointed conservator or receiver to acquire uninsured deposit liabilities of such institution so long
as the insurance fund does not incur any loss with
respect to such deposit liabilities in an amount
greater than the loss which would have been incurred with respect to such liabilities if the institution had been liquidated.

App. 40
of banking. The underlying purposes of the D’Oench
Duhme doctrine are twofold:
One purpose of § 1823(e) is to allow federal and state bank examiners to rely on a
bank’s records in evaluating the worth of the
bank’s assets. Such evaluations are necessary
when a bank is examined for fiscal soundness
by state or federal authorities. . . .
A second purpose of § 1823(e) is implicit
in its requirement that the “agreement” not
merely be on file in the bank’s records at the
time of an examination, but also have been executed and become a bank record “contemporaneously” with the making of the note and
have been approved by officially recorded action of the bank’s board or loan committee.
These latter requirements ensure mature
consideration of unusual loan transactions by
senior bank officials, and prevent fraudulent
insertion of new terms, with the collusion of
bank employees, when a bank appears headed
for failure. . . .
Langley, 448 U.S. at 91-92. There are, however, recognized exceptions to the D’Oench Duhme doctrine, including the defenses/claims of fraud in the factum and
illegality of the contract. The defenses that “survive
are those . . . that void an interest ab initio” thus rendering the instrument “void” and not transferable to

App. 41
the FDIC. 4 Law of Distressed Real Estate, Real Defenses § 45:18 (2016); see Langley, 448 U.S. 86.7
FRAUD IN THE FACTUM
Fraud in the factum occurs “when a party signs a
document without full knowledge of the character of
essential terms of the instrument.” McLemore v.
Landry, 898 F.2d 996, 1002 (5th Cir. 1990) (citations
omitted); see also 4 Law of Distressed Real Estate, Real
Defenses – Fraud in Factum § 45:19 (2016). The Restatement (Second) of Contracts § 163 (1981) sets forth
fraud in the factum as follows:
If a misrepresentation as to the character or
essential terms of a proposed contract induces
conduct that appears to be a manifestation of
assent by one who neither knows nor has reasonable opportunity to know of the character
or essential terms of the proposed contract,
his conduct is not effective as a manifestation
of assent.
And, as to the D’Oench Duhme doctrine, the United
States Supreme Court has recognized that fraud in the
factum constitutes “the sort of fraud that procures a
party’s signature to an instrument without knowledge
of its true nature or contents.” Langley, 484 U.S. at 93
(citations omitted). A commonly cited example of fraud
7

Both Pence and Bean asserted fraud and illegality as affirmative defenses to the allegations set forth in the complaint.
They reasserted these defenses in their objections to the Master
Commissioner’s Report.

App. 42
in the factum occurred where a party “erased the original bank’s name [on a guarantee] and inserted the
name of another bank” after execution of the guarantee. FDIC v. Turner, 869 F. 2d 270, 274 (6th Cir. 1989).
In this case, Bean and Pence specifically argue
that the Revolving Line of Credit and Guarantee are
void due to fraud in the factum:
Bean [and Pence] never knew that Huff and
PAB’s [Park Avenue Bank’s] officials had masterminded this devious scheme to funnel
money between several Huff controlled bank
accounts at PAB to mask massive bank overdrafts and that bogus documents purporting
to be loan documents, including the “guarantee” signed by Bean [and Pence], were a complete sham. Bean [and Pence] had no
opportunity, much less a reasonable opportunity, to obtain knowledge that the documents purporting to be loan documents were
contrived to conceal an intra-bank, money
funneling scheme. . . .
It is abundantly clear that the bogus PAB
documents purporting to be loan documents
were void ab initio. . . .
....
All of the “loan documents” at issue in the
case at bar are completely fictitious. They
were concocted to cover up a criminal scheme
to funnel money between several Huff controlled bank accounts at PAB to mask massive
bank overdrafts. In other words, the fictitious

App. 43
guarantee at issue here was void ab initio and
the fraud at issue here is “fraud in the factum.” . . .
....
Bean [and Pence] signed a document that was
not only used for an “unforeseen and unrelated design,” but a document that was not
genuine! The guarantee and the loan documents in this case are undisputedly phony,
contrived, and otherwise fake. They were concocted by PAB officials and Huff, and there is
no evidence that Bean [and Pence] knew anything about the fact that they were bogus papers intended to cover up a criminal banking
scheme to funnel money between several Huff
controlled bank accounts at PAB to mask
massive bank overdrafts. . . .
Bean’s Brief at 9, 12, and 15 (citations omitted).
Viewing the facts most favorable to Bean and
Pence, they have failed to raise material issues of fact
as to fraud in the factum. Although the Revolving Line
of Credit and Guarantee were part of a criminal
scheme, it is undisputed that Park Avenue Bank disbursed loan proceeds in the amount of $1,485,000 under the terms of the Revolving Line of Credit and
transferred said sums to a River Falls Holdings’ checking account. Additionally, Bean and Pence knew they
were signing a Revolving Line of Credit and knew the
repayment terms of the Revolving Line of Credit. As
observed by the circuit court, both Bean and Pence
were “experienced businessmen.” The fraud alleged by

App. 44
Bean and Pence simply does not constitute fraud in the
factum but may raise facts more consistent with fraud
in the inducement, which of course is negated under
the facts of this case by the D’Oench Duhme doctrine.
Accordingly, we are of the opinion that the circuit court
properly rendered summary judgment upon Bean and
Pence’s defense of fraud in the factum.
ILLEGALITY
The illegality of an agreement or contract with a
banking institution is also a recognized exception to
the D’Oench Duhme doctrine when the effect of the illegality is to render the underlying note or instrument
void. 4 Law of Distressed Real Estate, Real Defenses –
Illegality § 45:20 (2016). However, where the effect of
the illegality merely renders the underlying note or instrument voidable, there is no exception to the D’Oench
Duhme doctrine, and the defense or claim is barred
thereunder. FDIC v. Hudson, 800 F. Supp. 867 (N.D.
Cal. 1990); In re Settlers’ Housing Serv. Inc. v. Schaumburg Bank & Trust Co., N.A., 514 B.R. 258 (N.D. Ill.
2014). To determine whether an agreement is void or
voidable, the court may look to both state and federal
law; however, if state law is in contravention of federal
law, the federal law will control. FDIC v. Turner, 869
F.2d 270 (6 Cir. 1989). And, federal case law holds that
not every agreement violative of law or public policy
will render the underlying note or instrument void.
CMF Virginia Land, L.P. v. Brinson, 806 F. Supp. 90
(E.D. Va. 1992); Settlers Housing Serv., 514 B.R. 258.

App. 45
Based on the record in this case, neither the circuit
court nor the master commissioner fully considered
the issue of illegality of the underlying bank transactions, as alleged by Pence and Bean. The circuit court
made merely one cursory reference to illegality in its
orders, and the master commissioner failed to even
acknowledge the issue entirely in his report. Moreover,
in their respective briefs, Bean and Pence have not set
forth the specific legal authority that would support a
legal argument to render the Revolving Line of Credit
or Guarantee void. Notwithstanding, if Huff and Antonucci, and perhaps others, engaged in an elaborate
shell game in the various bank loan transactions to
shield a criminal enterprise unbeknownst to Pence and
Bean, then their defense could possibly prevail. Of
course, when the lid is lifted off of Pandora’s Box, any
alleged complicity, knowledge or participation by Pence
and Bean in the criminal enterprise shall be open to
scrutiny and discovery, which could negate the illegality defense under various legal doctrines, which is not
properly before this Court at this time.
Therefore, in view of the complexity of this case
and current posture thereof, we conclude that summary judgment was prematurely rendered upon the
defense of illegality and vacate the summary judgment
upon said defense.
COUNTERCLAIMS
Bean and Pence also argue that the circuit court
erred by denying their motion to file a counterclaim

App. 46
against VNB. Bean and Pence maintain that their
claims of fraud in the factum and illegality were not
barred by the D’Oench Duhme doctrine. In the circuit
court’s November 17, 2015, Order, it concluded that
Bean and Pence’s “motions to file counterclaims
against VNB are also denied. They are based on the
same arguments that are barred by D’Oench.”
It is clear that the D’Oench Duhme doctrine bars
both defenses and claims raised against the FDIC or
assignee bank. Bowen v. FDIC, 915 F.2d 1013 (5th Cir.
1990); FSLIC v. Gemini Mgmt., 921 F.2d 241 (9th Cir.
1990). As previously discussed in this Opinion, we held
that the circuit court properly rendered summary
judgment upon Bean and Pence’s fraud in the factum
defense. As their counterclaim is based upon identical
law and facts, we conclude that their fraud in the factum counterclaim was, likewise, barred. See Bowen,
915 F.2d 1013; Gemini Mgmt., 921 F.2d 241. However,
in this Opinion, we have also held that summary judgment was premature upon Bean and Pence’s illegality
defense; likewise, we view Bean and Pence’s motion to
file a counterclaim raising the claim of illegality as
prematurely denied.
SUMMARY
In summation, we hold that the circuit court
properly rendered summary judgment upon Bean and
Pence’s defense of fraud in the factum and properly denied Bean and Pence’s counterclaim also based upon
fraud in the factum. We, however, conclude that the

App. 47
circuit court prematurely rendered summary judgment upon Bean and Pence’s defense of illegality and
also prematurely denied their motion to file a counterclaim based upon illegality.8 Therefore, we vacate the
circuit court’s orders as to the defense and counterclaim of illegality and remand for additional proceedings.
For the foregoing reasons, the orders of the Jefferson Circuit Court are affirmed in part, vacated in part,
and remanded for proceedings consistent with this
Opinion.
ALL CONCUR.
BRIEF FOR APPELLANT BRIEFS FOR APPELLEE
THOMAS BEAN:
VNB NEW YORK, LLC AS
SUCCESSOR BY
Michael A. Valenti
MERGER TO VNB NEW
Lee S. Archer
YORK CORPORATION:
Louisville, Kentucky
Christie A. Moore
April A. Wimberg
Louisville, Kentucky

8

Our Opinion should not be misconstrued as holding that
Thomas Bean or Stephen B. Pence has set forth a valid claim or
defense upon illegality. We merely conclude that the circuit
court’s ruling upon illegality was premature. Upon additional
consideration by the circuit court, including additional discovery
if the circuit court deems necessary, summary judgment for VNB
may, indeed, be properly granted against such defense and counterclaim.

App. 48
ORAL ARGUMENT FOR ORAL ARGUMENT FOR
APPELLANT, THOMAS APPELLEE VNB NEW
BEAN:
YORK, LLC AS SUCCESSOR BY MERGER TO
Michael A. Valenti
VNB NEW YORK
Louisville, Kentucky
CORPORATION:
Christie A. Moore
Louisville, Kentucky
BRIEF FOR APPELLANT,
STEPHEN B. PENCE:
Michael A. Valenti
Lee S. Archer
Louisville, Kentucky
ORAL ARGUMENT FOR
APPELLANT, STEPHEN
B. PENCE:
Michael A. Valenti
Louisville, Kentucky

App. 49
JEFFERSON CIRCUIT COURT
DIVISION NINE
JUDGE JUDITH E. McDONALD-BURKMAN
CASE NO. 10-CI-405021
VBN NEW YORK, LLC AS
SUCCESSOR IN INTEREST
TO THE PARK AVENUE BANK
v.

PLAINTIFF

AMENDED ORDER

ALEXANDER & ALEXANDER
RISK SERVICES, LLC, et al.

DEFENDANTS

*** *** ***
(Filed Nov. 14, 2015)
This matter comes before the Court on Motion to
Alter, Amend or Vacate filed by Defendant Stephen B.
Pence (“Pence”). Defendant Thomas Bean (“Bean”) has
also filed a Motion for Reconsideration. Plaintiff VNB
New York, LLC, as Successor in Interest to the Park
Avenue Bank (“VNB”) has responded and the matter
is now submitted.
Pence and Bean seek reconsideration of the
Court’s January 12, 2015 Order overruling their objections to the Master Commissioner’s Report based on
the D’Oench Doctrine and 12 U.S.C. § 1823(e), The facts
and circumstances surrounding the promissory notes
and mortgages at issue are discussed in the January
12, 2015 Order and are incorporated herein by reference.
Pence and Bean are experienced businessmen,
and do not dispute knowing what documents they

App. 50
signed. Their primary defense is that they had an oral
agreement with Anthony Huff that they would not be
liable and no funds were actually disbursed. However,
this side agreement is the precise scenario D’Oench
and § 1823 are designed to avoid. A failed bank’s records, such as the promissory notes and mortgages, essentially are viewed in a vacuum; only errors in the
written documents themselves and the institution’s
records can overcome D’Oench and §1823. As the Court
previously determined, Pence and Bean understood
the terms of the documents they executed, did not raise
any objections to the terms, and Park Avenue Bank’s
records do not reflect any amendments or alterations
of those written terms. Illegal transactions may still
fall within the parameters of D’Oench. FDIC v. Investors Assocs. X Ltd., 775 F.2d 152, 156 (6th Cir. 1985).
For these same reasons, Pence’s and Beans motions to
file counterclaims against VNB are also denied. They
are based on the same arguments that are barred by
D’Oench.
Therefore, after a careful review of the record, applicable law and the Court being otherwise sufficiently
advised, IT IS HEREBY ORDERED AND ADJUDGED that Defendant Stephen B. Pence’s Motion
to Alter, Amend or Vacate and Defendant Thomas
Bean’s Motion for Reconsideration are DENIED.

App. 51
This is a final and appealable order there being no
just cause for delay.
/s/ Judith McDonald-Burkman
JUDITH E. MCDONALD-BURKMAN,
JUDGE
JEFFERSON CIRCUIT COURT
DATE: 11-17-15

[Distribution List Omitted]

App. 52
JEFFERSON CIRCUIT COURT
DIVISION NINE
JUDGE JUDITH E. McDONALD-BURKMAN
CASE NO. 10-CI-405021
VBN NEW YORK, CORPORATION
AS SUCCESSOR IN INTEREST
TO THE PARK AVENUE BANK
v.

PLAINTIFF

ORDER

ALEXANDER & ALEXANDER
RISK SERVICES, LLC, et al.

DEFENDANTS

*** *** ***
(Filed Jan. 12, 2015)
This matter comes before the Court on Objections
to Master Commissioner’s Report filed by Defendants
Stephen B. Pence (“Pence”) and Thomas Bean (“Bean”).
Plaintiff VNB New York Corporation as Successor in
Interest to Park Avenue Bank (“VNB”) has responded.
A hearing was held October 22, 2014 and the matter is
now submitted.
In March 2009, VNB’s predecessor Park Avenue
Bank (“PAB”) entered into a $1,500,000 Revolving
Line of Credit Secured Promissory Note, signed by
Pence as Manager of River Falls Holdings, LLC and
Bean as Manager of River Falls Investments, LLC. It
was also secured by a mortgage granted by SDH Realty, Inc. and Sheri D. Huff, as well as personal guaranties of Pence, Bean and Sheri D. Huff. Pence
acknowledges signing the various documents involved
in the transaction, but disputes the dates on the documents. He claims he signed all the documents at one

App. 53
time on March 25, 2009, not on different days as indicated on the notary pages. At Pence’s written direction
to PAB Vice President Matthew Morris on March 23,
2009, the funds were disbursed to River Falls on March
24, 2009, and then were transferred to a PAB account
belonging to SDH Realty, Inc. Bean alleges he signed
the documents in Florida, despite the notary pages indicating they were signed in Kentucky on March 18,
2009. Pence and Bean claim they were both told by
PAB officers they would not be held personally liable
for the guaranties despite the language contained
therein to the contrary.
PAB failed in 2010, and the FDIC was appointed
its receiver. VNB became its successor by buying its assets and liabilities, including the promissory note at issue. Ultimately, PAB’s President Charles Antonucci
and Vice President Matthew Morris were indicted, and
eventually pled guilty, for an extensive fraud scheme
involving another PAB client, Anthony Huff. PAB allowed Huff to overdraw his accounts by millions of
dollars, and hide them through the use of loan applications obtained through fraudulent mispresentations as
to the purpose of the proceeds. There is no allegation
that Pence and Bean were anything other than victims
of this banking scheme.
The Master Commissioner determined that
Pence’s and Bean’s defenses were precluded by the
D’Oench Doctrine and/or 12 U.S.C. § 1823(e). Both aim
to prevent oral side agreements that are not documented in the official records of failed institutions.
Pence and Bean claim D’Oench is no longer good law

App. 54
since FIRREA supersedes it, relying on FDIC v. Deglau, 207 F.3d 153 (3rd Cir. 2000). In Deglau, the Court
determined that in light of Atherton v. FDIC, 519 US
213 (1997) and O’Melveny & Myers v. FDIC, 512 US 79
(1994), § 1823(e) was sufficiently comprehensive and
detailed and the common-law D’Oench doctrine was
not needed to supplement it. Deglau at 171.
Under § 1823(e), to diminish the interest of the depository institution that takes over a failed institution
in an agreement, the agreement must (1) be in writing;
(2) be executed by the depository institution and the
person claiming an adverse interest under it contemporaneously with the acquisition of the asset by the depository institution; (3) be approved by the board of
directors of the depository institution; and (4) have
been an official record of the depository institution
since its execution. Pence’s allegation that he was not
to be held personally liable on the note is the type of
oral side agreement the D’Oench Doctrine and § 1823
were designed to prevent. It was unwritten, never approved by PAB’s board of directors, or made part of
PAB’s official records.
Defendants raise argument that the D’Oench Doctrine and § 1823 are inapplicable to void contracts.
Langley v. FDIC, 484 U.S. 86 (1987). There is little dispute the promissory notes were obtained through
fraud, however Pence and Bean acknowledge they
knew at the time they were signing documents to obligate their respective companies. There are, however,
questions as to the oral agreement to not hold them
personally liable, despite the language of the notes, the

App. 55
date and location of their execution, and purpose of the
funds. Such considerations support a defense of fraud
in the inducement, not fraud in the factum, and render
the notes voidable not void ab initio.
Therefore, after a careful review of the record,
applicable law and the Court being otherwise sufficiently advised, IT IS HEREBY ORDERED AND
ADJUDGED THAT Objections to Master Commissioner’s Report filed by Defendants Stephen B. Pence
and Thomas Bean are OVERRULED.
/s/ Judith McDonald-Burkman
JUDITH E. MCDONALD-BURKMAN,
JUDGE
JEFFERSON CIRCUIT COURT
DATE: 1-12-15

[Distribution List Omitted]

App. 56
Supreme Court of Kentucky
2019-SC-000705-D
(2015-CA-001821 & 2018-CA-001259)
STEPHEN B. PENCE, ET AL.
V.

MOVANTS

JEFFERSON CIRCUIT COURT
2010-CI-405021

VNB NEW YORK LLC, AS
RESPONDENT
SUCCESSOR BY MERGER TO
VNB NEW YORK CORPORATION,
AS SUCCESSOR IN INTEREST
TO THE PARK AVENUE BANK
ORDER DENYING DISCRETIONARY REVIEW
The motion for review of the decision of the Court
of Appeals is denied.
Nickell, J., not sitting.
ENTERED: May 20, 2020.
/s/ John D. Minton, Jr.
CHIEF JUSTICE

